      Department of Homeland Security





                 DHS Can Take Actions To Address 

            Its Additional Cybersecurity Responsibilities 





OIG-13-95                                                June 2013

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                                      June 5, 2013

MEMORANDUM FOR:               Bobbie Stempfley
                              Acting Assistant Secretary
                              Office of Cybersecurity and Communications
                              National Protection and Programs Directorate

FROM:                         Frank W. Deffer
                              Assistant Inspector General
                              Office of Information Technology Audits

SUBJECT:                      DHS Can Take Actions To Address Its Additional
                              Cybersecurity Responsibilities

Attached for your action is our final report, DHS Can Take Actions To Address Its Additional
Cybersecurity Responsibilities. We incorporated the National Protection and Programs
Directorate’s formal comments in the final report.

The report contains six recommendations aimed at addressing the National Protection and
Programs Directorate’s cybersecurity responsibilities to improve the security posture of the
Federal Government. The National Protection and Programs Directorate concurred with all
recommendations. As prescribed by the Department of Homeland Security Directive
077-01, Follow-Up and Resolutions for Office of Inspector General Report Recommendations,
within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible
parties and any other supporting documentation necessary to inform us about the current
status of the recommendation. Until your response is received and evaluated, the
recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination

Please call me with any questions, or your staff may contact Chiu-Tong Tsang, Director,
Information Security Audit Division, at (202) 254-5472.

Attachment





                                         OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1

   Background ......................................................................................................................... 2

   Results of Audit .................................................................................................................. 5

              Actions Taken To Improve Cybersecurity at Federal Agencies............................... 5
              Strategic Implementation Plan Needed for Effective Cybersecurity Oversight .... 6
              Recommendations ................................................................................................. 7
              Management Comments and OIG Analysis ........................................................... 7

              Improved Communication and Collaboration With
              Federal Agencies Can Help Improve the FISMA Reporting Process ....................... 8
              Recommendations ............................................................................................... 10
              Management Comments and OIG Analysis ......................................................... 10

              CS&C Does Not Maintain an Adequate Security Training
              Program for Contractors ....................................................................................... 12
              Recommendation ................................................................................................. 13
              Management Comments and OIG Analysis ......................................................... 13

              Technical Enhancements Can Improve CyberScope Security ............................... 13
              Recommendation ................................................................................................. 14
              Management Comments and OIG Analysis ......................................................... 15

   Appendixes
              Appendix A:          Objectives, Scope, and Methodology ............................................ 16
              Appendix B:          Management Comments to the Draft Report ............................... 17
              Appendix C:          Major Contributors to This Report ................................................ 20
              Appendix D:          Report Distribution ........................................................................ 21

   Abbreviations
              CDM                   Continuous Diagnostics Mitigation
              CIO                   Chief Information Officer
              CONOPS                Concept of Operations
              CPM                   Cybersecurity Performance Management
              CS&C                  Office of Cybersecurity and Communications
www.oig.dhs.gov                                                                                                                  OIG-13-95
                      OFFICE OF INSPECTOR GENERAL
                        Department of Homeland Security


           DHS     Department of Homeland Security
           FISMA   Federal Information Security Management Act
           FNR     Federal Network Resilience
           FY      fiscal year
           ISSO    Information System Security Officer
           IT      information technology
           NIST    National Institute of Standards and Technology
           NPPD    National Protection and Programs Directorate
           OCIO    Office of the Chief Information Officer
           OIG     Office of Inspector General
           OMB     Office of Management and Budget
           TIC     Trusted Internet Connection




www.oig.dhs.gov                                                     OIG-13-95

                          OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Executive Summary
In 2010, the Office of Management and Budget designated the Department of
Homeland Security (DHS) with the primary responsibilities of overseeing the
Federal-wide information security program and evaluating its compliance with the
Federal Information Security Management Act of 2002. The National Protection and
Programs Directorate (NPPD), which is primarily responsible for fulfilling DHS security
missions, assumed this responsibility for the Department. Subsequent to the
President’s issuance of Executive Order 13618 in July 2012, NPPD’s Office of
Cybersecurity and Communications was reorganized in an effort to promote security,
resiliency, and reliability of the Nation’s cyber and communications infrastructure.

We audited NPPD to determine whether the Office of Cybersecurity and
Communications has implemented its additional cybersecurity responsibilities
effectively to improve the security posture of the Federal Government.

The Federal Network Resilience division, within the Office of Cybersecurity and
Communications, has taken actions to address its assigned responsibilities and to
improve the information security posture at Government agencies. For example, the
Federal Network Resilience division manages the annual Federal Information Security
Management Act reporting process and takes an active approach toward evaluating
agencies’ compliance with the President’s cybersecurity initiatives. Further, it conducts
information security assessments at selected Federal agencies.

Although actions have been taken, NPPD can make further improvements to address its
additional cybersecurity responsibilities. For example, the Federal Network Resilience
division must develop a strategic implementation plan to define its long-term goals on
improving agencies’ information security programs. Further, increased communication
and coordination with Government agencies can improve the Federal Information
Security Management Act reporting process. Finally, NPPD must address deficiencies in
maintaining and tracking the training records of CyberScope contractor personnel and
implement the required DHS baseline configuration settings.

We are making six recommendations to the Acting Assistant Secretary, Office of
Cybersecurity and Communications. NPPD concurred with all recommendations and has
begun to take actions to implement them. NPPD’s responses are summarized and
evaluated in the body of this report and are included, in their entirety, as appendix B.




www.oig.dhs.gov                             1                                    OIG-13-95

                                   OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


Background
To help secure agency information systems against cyber threats, the Federal
Information Security Management Act of 2002 (FISMA) was enacted to set forth a
comprehensive framework for ensuring effective information security.1 To ensure the
implementation of this framework, FISMA assigned specific responsibilities to the Office
of Management and Budget (OMB) to develop and oversee the implementation of
policies and standards on information security.

On July 6, 2010, OMB designated DHS with the primary responsibility of overseeing a
Federal-wide information security program designed to better protect Federal agencies’
information systems and networks.2 NPPD, which serves as the lead for protecting and
enhancing the resilience of the Nation’s physical and cyber infrastructure, assumed this
responsibility for the Department.

NPPD’s Office of Cybersecurity and Communications (CS&C) is responsible for
developing and collecting FISMA metrics, in conjunction with OMB, that are submitted
either annually or quarterly by the Office of Chief Information Officer (OCIO) and Office
of Inspector General (OIG) at each agency. In addition, Federal agencies are required to
provide monthly information security and vulnerability data feeds through a web-based
application, CyberScope, allowing for improved risk-management decisions and
increased situational awareness.3

To gain access to CyberScope, users must authenticate with their Homeland Security
Presidential Directive 12 compliant credential that contains a digital certificate and
personal identification number through OMB’s Max Portal.4 Authenticated users are
then directed to CyberScope to input or review FISMA-related data. Figure 1 shows a
high-level view of CyberScope’s system and encryption architecture.




1
  Federal Information Security Management Act of 2002 (Public Law 107-347, Section 301-305).
2
  OMB M-10-28, Clarifying Cybersecurity Responsibilities and Activities of the Executive Office of the President and the
Department of Homeland Security (DHS), July 6, 2010, assigned DHS with the primary responsibility within the
Executive Branch for the operational aspects of Federal agency cybersecurity regarding Federal information systems
that fall within FISMA.
3
  Agencies must load data from their security management tools into CyberScope on a monthly basis. Small and
micro agencies are not required to submit monthly data feeds.
4
  An OMB waiver is required for agencies to use single-factor authentication (username and password) to access
CyberScope.


www.oig.dhs.gov                                            2                                                 OIG-13-95

                                  OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


Figure 1. CyberScope System Architecture and Encryption Elements 





Further, DHS has been tasked with developing, managing, and overseeing OMB’s
Trusted Internet Connection (TIC) initiative for the Federal Government.5 Identified as
one of the Administration’s three priorities to improve cybersecurity and the security of
Federal information systems, the TIC initiative aims to further improve agencies’
security posture and incident response capabilities through enhanced monitoring and
situational awareness of all external network connections.6

Additionally, the President issued Executive Order 13618 to improve emergency
communication throughout the Federal Government.7 Under the Executive Order, DHS
was required to provide the President with a detailed plan within 60 days of issuance,
describing the organization and management structure for its national
security/emergency preparedness communications functions. Subsequently, CS&C was
reorganized in October 2012 to support these requirements better and improve the
security and dependability of the Nation’s cyber and communications infrastructure.
Specifically, CS&C is now composed of five divisions: Federal Network Resilience (FNR),

5
  OMB M-08-05, Implementation of Trusted Internet Connections (TIC), November 20, 2007, established the TIC
initiative, which requires departments and agencies to secure Federal external network connections, including
Internet connections, and improve the government's incident response capability by reducing the number of
agencies' external network connections and implementing security controls over the connections that remain.
6
  The three Administrative Cybersecurity Priorities are continuous monitoring of Federal information systems, TIC
capabilities and traffic consolidation, and strong authentication with Homeland Security Presidential Directive 12
compliant credentials for logical access control.
7
  Executive Order 13618, Assignment of National Security and Emergency Preparedness (NS/EP) Communications
Functions, was issued on July 6, 2012.


www.oig.dhs.gov                                           3                                                OIG-13-95

                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Network Security Deployment, National Cybersecurity and Communications Integration
Center, Office of Emergency Communications, and the Stakeholder Engagement and
Cyber Infrastructure Resilience divisions. Figure 2 illustrates the realignment of CS&C.

Figure 2. Realigned CS&C Organizational Chart as of October 2012




Within the FNR division, the Cybersecurity Performance Management (CPM) Branch is
responsible for (1) developing and disseminating FISMA reporting metrics, (2) managing
the CyberScope web-based application, and (3) collecting and reviewing Federal
agencies’ cybersecurity data submissions and monthly data feeds. In addition, FNR’s
Cybersecurity Assurance Program Branch is responsible for conducting cybersecurity
reviews and assessments at Federal agencies to evaluate the effectiveness of agencies’
information security programs and compliance with OMB initiatives.




www.oig.dhs.gov                             4                                   OIG-13-95

                                   OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


Results of Audit
           Actions Taken To Improve Cybersecurity at Federal Agencies

           CS&C has taken actions to implement its additional FISMA responsibilities and
           improve the cybersecurity programs at Federal agencies. For example, CS&C has
           assumed the responsibility to manage the annual FISMA reporting process on
           behalf of OMB and conducted reviews and technical assessments to assess and
           improve cybersecurity capabilities at Federal agencies. Specifically, CS&C has—

                •	 Developed and refined the annual FISMA reporting metrics in conjunction
                   with OMB, which are used to assess agency information security
                   programs and cybersecurity risks across the Federal Government. Some
                   Federal agencies we interviewed indicated that CS&C has taken positive
                   steps to refine the annual reporting metrics by including agencies’ input
                   and feedback into the process.

                •	 Conducted seven CyberStat reviews, as of October 2012, to assist Federal
                   agencies in identifying capability limitations and developing action plans
                   to improve information security operations.8

                •	 Developed the Department of Homeland Security Plan for Organization
                   and Management of National Security and Emergency Preparedness
                   (NS/EP) Communications Functions in September 2012, as required by
                   Executive Order 13618. The plan presents a unified strategy that
                   identifies clear cybersecurity and communications roles and
                   responsibilities and sets the conditions for more effective management.

                •	 Implemented effective security controls to protect the information
                   stored and processed by CyberScope. Our vulnerability and configuration
                   reviews only identified a few weaknesses.

                •	 Authorized CyberScope to operate in accordance with applicable DHS,
                   National Institute of Standards and Technology (NIST), and OMB
                   guidance. Our review of the CyberScope security authorization package
                   did not reveal any significant deficiencies.




8
    CyberStat sessions include DHS, OMB, and agency team representatives working together to examine program data.


www.oig.dhs.gov                                          5	                                            OIG-13-95

                            OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


           •      Performed 18 network and TIC assessments in fiscal year (FY) 2012 to
                  evaluate the security posture, compliance with OMB cybersecurity
                  initiatives, and identify areas of improvement at selected agencies.

       Despite these efforts, CS&C can take further actions to implement its additional
       cybersecurity responsibilities. For example, developing a strategic
       implementation plan and improving the communication and coordination with
       Federal agencies will help CS&C refine the FISMA reporting metrics and better
       evaluate agency information security programs. In addition, CS&C must
       establish a process to ensure that CyberScope contractor personnel receive
       adequate security training to perform their job functions. Finally, CS&C must
       configure CyberScope in accordance with DHS guidance.

       Strategic Implementation Plan Needed for Effective Cybersecurity Oversight

       FNR has not developed a strategic implementation plan that describes its
       cybersecurity responsibilities or establishes specific timeframes and milestones
       to provide a clear plan of action for fulfilling its cybersecurity responsibilities. In
       addition, FNR has not established performance metrics to measure and monitor
       its progress in accomplishing its mission and goals. As a result, FNR cannot ensure
       that it is effectively overseeing Federal agencies’ information security programs.

       Further, although FNR has developed policies and standard operating
       procedures that specify its responsibilities and key cybersecurity activities, many
       of these documents are in draft. In addition, FNR has not developed long-term
       cybersecurity goals and identified medium-term steps or milestones for Federal
       agencies to accomplish the long-term goals. Without the long-term goals, CS&C
       will have difficulty determining whether the CPM program is effective in
       achieving the desired results to strengthen the security posture of the Federal
       Government.

       Management turnover has hindered CS&C’s ability to develop a strategic
       implementation plan. Specifically, key leadership personnel have departed CS&C
       within the past year, including the Assistant Secretary of CS&C in January 2013,
       Director of FNR (previously known as Federal Network Security) in July 2012, and
       the CPM Branch Chief in March 2013. In addition, the issuance of Executive
       Order 13618 triggered a comprehensive review of DHS’ cybersecurity roles and
       responsibilities, which resulted in CS&C’s reorganization into five new divisions in
       October 2012. As a result, CS&C has to change its draft strategic implementation
       plan to reflect the revised organizational structure and incorporate new
       management priorities.



www.oig.dhs.gov                               6                                      OIG-13-95

                                   OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


            The GPRA Modernization Act of 2010 requires the development of a strategic
            implementation plan that identifies the major functions and operations of an
            agency.9 The plan should include general goals and objectives and a description
            of how those goals and objectives can be achieved. It should cover at least four
            years following the fiscal year in which the plan is developed. According to OMB
            guidance, performance measures are developed to monitor a program’s
            accomplishments and determine whether results are being achieved. In addition,
            performance measures must be based on a program’s mission and priorities. In
            some instances where the outcome of a program may not be realized for many
            years, a program should identify specific short- and medium-term milestones to
            accomplish long-term performance goals. Appropriate performance goals
            should include performance measures and targets, outcomes, and annual and
            long-term measures and targets.

            Without a strategic implementation plan that specifies long-term goals and
            performance metrics, it may be difficult for CS&C FNR to manage and evaluate
            Federal agencies’ information security programs effectively. In addition, given
            the complexity of managing a Federal-wide program and frequent organizational
            changes, a comprehensive strategic implementation plan will help CS&C FNR
            achieve its key objectives and milestones.

            Recommendations

            We recommend that the Acting Assistant Secretary, CS&C:

            Recommendation #1: Coordinate with OMB to develop a strategic
            implementation plan, which identifies long-term goals and milestones, for
            Federal agency FISMA compliance.

            Recommendation #2: Update and finalize internal operating procedures and
            guidance documents to ensure that cyber responsibilities and procedures are
            clearly defined.

            Management Comments and OIG Analysis

            NPPD concurred with recommendation 1. FNR is currently engaged with OMB,
            NIST, and the Chief Information Officer (CIO) community in a sustained effort to
            strategically align Continuous Diagnostics and Mitigation (CDM) capabilities,
            direction, and governance with the requirements and imperatives of the FISMA
            compliance regime. The overarching aim of the strategic alliance will further

9
    GPRA Modernization Act of 2010 (Public Law 111-352).


www.oig.dhs.gov                                            7                        OIG-13-95

                         OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


       advance performance and produce measurable results. OMB is being provided
       with short-, mid-, and long-term concept of operations (CONOPs) roadmaps for
       CDM via the Joint Continuous Monitoring Working Group. FNR is also working
       directly with NIST to map measurements to controls. These collaborations are
       directly influencing OMB guidance to departments and agencies, including the
       revision of OMB Circular A-130. Suggested exit criteria are the Joint Continuous
       Monitoring Working Group CONOPs containing short-, mid-, and long-range CDM
       roadmaps; deliverables related to the CDM capability model; and CDM control
       mappings.

       We agree that the steps that NPPD plans to take begin to satisfy this
       recommendation. This recommendation will remain open until NPPD provides
       documentation to support that planned corrective actions are completed.

       NPPD concurred with recommendation 2. FNR has finalized all of its internal
       standard operating procedures for FISMA reporting and metric guidance,
       cybersecurity performance reviews, and performance analysis. Operational
       process and procedure documents for the CPM branch are consolidated in the
       single document; ‘Cybersecurity Performance Management Operations Guide
       v1.0’. In addition, FNR has updated their CONOPs in Performance Management
       Concept of Operations (CONOPs), v2.0. The Operations Guide v1.0 and CONOPs
       v2.0 are currently under final review and will be shared as soon as they are
       signed.

       We agree that the steps that NPPD plans to take begin to satisfy this
       recommendation. This recommendation will remain open until NPPD provides
       documentation to support that planned corrective actions are completed.

       Improved Communication and Collaboration With Federal Agencies Can Help
       Improve the FISMA Reporting Process

       CS&C FNR can improve communication and collaboration with Federal agencies
       to enhance the annual FISMA reporting process. Although agency representatives
       said that CS&C has taken actions, some agencies indicated that CS&C FNR can
       make further improvements to the clarity and quality of the FISMA reporting
       metrics and enhance the levels of communication regarding agencies’
       vulnerability submissions.

       We collected comments from 10 Federal agencies and representatives from the
       Chief Information Security Officer Council and Federal Audit Executive Council to
       obtain their perspective on the FISMA reporting metrics and monthly



www.oig.dhs.gov                            8                                    OIG-13-95

                                  OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


         CyberScope vulnerability data submissions.10 We also gathered comments
         regarding the cybersecurity assessments conducted by CS&C FNR at selected
         Federal agencies.

         Five agencies indicated that some of the FY 2012 and FY 2013 FISMA reporting
         metrics were unclear and should be revised to reduce ambiguity. For example,
         one agency stressed the need for additional descriptions and details in the
         reporting metrics and would like for CyberScope to include dialog or pop-up
         boxes within the application. Its representatives stated that this enhancement
         would ensure that agencies are providing DHS and OMB with the information to
         assess properly Federal agencies’ information security programs. In addition,
         two agencies stated that the annual FISMA reporting process is a strain on
         available personnel resources as DHS and OMB are developing too many metrics.

         Further, one agency stated that, instead of spending resources to implement
         technical controls and automated capabilities to monitor and protect its
         networks, it had to divert available funding to ensure FISMA compliance and
         address the annual reporting metrics. In addition, two agencies indicated that
         the recent reporting metrics are paperwork driven and do not reflect the current
         effort for a Federal-wide continuous monitoring programs.11 As a result, these
         agencies expressed concerns on the inefficient use of resources. For example,
         they must divide available resources between continuous monitoring efforts and
         those associated with outdated criteria, such as FISMA legislation, OMB Circular
         A-130, and some NIST publications.

         Federal agencies are required to submit various data elements monthly, such as
         configuration management, vulnerability data, and audit trails.12 DHS has been
         collecting these data since 2011. Three agencies indicated that they have
         received little or no reaction from DHS regarding their monthly vulnerability
         submissions. For example, agencies stated that DHS has not provided any
         detailed information, such as trending analysis, regarding their monthly
         vulnerability data submissions. In addition, one agency stated that it did not
         know how or whether DHS used or evaluated its submitted data.


10
   The 10 Federal agencies are the Board of Governors of the Federal Reserve System; the Departments of Energy,
Health and Human Services, Homeland Security, Interior, Justice, State, and Treasury; the Securities and Exchange
Commission; and the Office of Personnel Management.
11
   NIST defines continuous monitoring as maintaining ongoing awareness of information security, vulnerabilities, and
threats to support organizational risk management decisions. Continuous monitoring, a critical aspect of the
organization-wide risk management process, is most effective when automated mechanisms are employed where
possible.
12
   OMB M-11-33, FY 2011 Reporting Instructions for the Federal Information Security Management Act and Agency
Privacy Management, September 14, 2011, requires agencies to establish monthly data feeds to CyberScope.


www.oig.dhs.gov                                           9                                               OIG-13-95

                                    OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


            According to the former CPM Branch Chief and internal procedures, CPM is not
            performing detailed analysis of monthly vulnerability submissions provided
            through CyberScope.13 Because of insufficient staff resources, CPM acknowledged
            that it may not be able to satisfy all of its requirements and responsibilities,
            including project management, communications, and outreach efforts.14

            Improved communication and collaboration with Federal agencies would allow
            DHS to improve the quality and clarity of the annual FISMA reporting metrics.
            Without clear and concise reporting metrics, it may be difficult for Federal
            agencies to provide accurate information regarding the status of their information
            security programs. As a result, DHS’ and OMB’s ability to properly assess FISMA
            compliance across the enterprise may be hindered. Finally, if the Department
            does not provide detailed analyses regarding agency data, it may be difficult for
            Federal agencies to identify potential vulnerability trends or properly secure
            their information systems and networks.

            Recommendations

            We recommend that the Acting Assistant Secretary, CS&C:

            Recommendation #3: Improve communication and coordination with Federal
            agencies by providing additional clarity regarding the FISMA reporting metrics.

            Recommendation #4: Implement a process to analyze and provide detailed
            feedback to Federal agencies concerning monthly vulnerability data feeds.

            Management Comments and OIG Analysis

            NPPD concurred with recommendation 3. FNR’s CPM branch is committed to
            continuous improvement. CPM has dedicated mechanisms in place for
            developing and vetting metrics and guidance using subject matter experts in full
            collaboration with OIG and CIO communities. Working groups are currently
            being held with representatives of the OIG community and subgroups of the
            Information Security and Identity Management Committee in order to
            incorporate feedback in the development of the FY 2014 metrics. As the OIG
            report notes, the Federal community has experienced improvements in the
            FISMA reporting process. Those improvements are due in large part to FNR’s
            commitment to continuous improvement, and FNR fully expects each successive
            round of metrics to be an improvement over the previous round. In addition,

13
     Cybersecurity Performance Analytics Standard Operating Procedures, April 26, 2012.
14
     Cybersecurity Performance Management Mission Needs Statement, April 23, 2012.


www.oig.dhs.gov                                            10                             OIG-13-95

                          OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       the CPM branch will produce the following additions to the Cybersecurity
       Performance Management Operations Guide v1.0: (a) stakeholder awareness
       matrix that outlines communication activities; (b) service descriptions that
       include procedures, practices, and expectations for collaboration with and
       support of Federal agencies; and (c) an impact matrix that identifies specific
       criteria for assessing the quality of a question.

       We agree that the steps that NPPD plans to take begin to satisfy this
       recommendation. This recommendation will remain open until NPPD provides
       documentation to support that planned corrective actions are completed.

       NPPD concurred with recommendation 4. NPPD stated that the current data
       feeds do not provide the fidelity or reliability required to provide a detailed
       vulnerability picture. The current data feeds are useful for informing decision
       makers of large-scale trends and possible threats concerning the existence of
       unsupported (end-of-life) operating system and software. The feeds also
       provide useful (though rough) situational awareness data regarding the types of
       monitoring tools being used and the fullness of current implementations.

       Resources are assigned and analysis is under way to glean additional useful
       vulnerability data from the feeds. However, the CyberScope data feeds must be
       seen as a transitional activity in the bigger picture of CDM. The feeds constitute
       an important first step in achieving the enterprise view essential to a successful
       continuous monitoring program. The alignment of tools, standards, resources,
       governance, and operations needed to bring about the feeds constitute a
       significant early success and critical baseline in the evolution of CDM.

       Additionally, the CPM branch in coordination with CDM program resources will
       produce a transition plan. The transition plan will identify the tasks and activities
       involved in moving from the Cyberscope data feeds to the CDM dashboard. It
       will include the following elements: a scope statement addressing background
       information on the project; a description of the relationship of the project to
       other projects and/or organizations; maintenance resources; and identification
       of the transition team’s responsibilities. It also includes the deployment
       schedule, resource estimates, management controls, reporting procedures, and
       risks and contingencies.

       We agree that the steps that NPPD plans to take begin to satisfy this
       recommendation. This recommendation will remain open until NPPD provides
       documentation to support that planned corrective actions are completed.




www.oig.dhs.gov                             11                                     OIG-13-95

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


         CS&C Does Not Maintain an Adequate Security Training Program for Contractors

         CS&C has not established an effective process to ensure that its CyberScope
         contractors (i.e., system administrators) have received the required security
         awareness or adequate specialized role-based training, commensurate with
         assigned responsibilities. Specifically, CS&C does not maintain records or
         provide documentation to support that these contractors have received DHS’
         security awareness or specialized information technology (IT) training. We
         identified a similar finding in our 2011 report.15

         According to the CyberScope Information System Security Officer (ISSO), FNR
         does not have a process to maintain training records for CyberScope contractors
         or ensure that all training requirements have been completed. Additionally,
         CS&C does not require contractors to receive any specialized IT training in
         addition to what is mandated by the hosting facility.

         FISMA requires agencies to provide employees, contractors, and other users of
         information systems with security awareness and specialized IT training annually.
         The training is designed to inform personnel about the risks associated with their
         activities when accessing government information systems and their
         responsibilities in complying with agency policies and procedures designed to
         reduce these risks. DHS also requires components to establish an information
         security training program for its users, which includes security awareness and
         specialized IT training for those with significant security responsibilities. ISSOs
         are also required to maintain training records for users and system personnel.

         Without an effective process to track training completion, CyberScope contractors
         may not have received the appropriate skills or knowledge to properly
         administer and secure the systems against potential cyber threats. In addition,
         the skills and knowledge required to maintain and improve system operations
         may not be developed. Training helps personnel obtain knowledge about
         current security threats, risks, trends, and mitigation techniques. CS&C cannot
         guarantee the security of the data collected through CyberScope without
         ensuring that all people involved understand their roles and responsibilities and
         are adequately trained to perform them.




15
  Planning, Management, and Systems Issues Hinder DHS’ Efforts To Protect Cyberspace and the Nation’s Cyber
Infrastructure (OIG-11-89, June 2011).


www.oig.dhs.gov                                        12                                             OIG-13-95

                         OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


       Recommendation

       We recommend that the Acting Assistant Secretary, CS&C:

       Recommendation #5: Establish a process to ensure that all CyberScope
       contractor system administrators have received adequate security training in
       compliance with applicable DHS, OMB, and NIST guidance.

       Management Comments and OIG Analysis

       NPPD concurred with recommendation 5. FNR is developing a standard
       operating procedure that defines the procedural controls for tracking
       CyberScope administrators to ensure that training meets or exceeds applicable
       DHS, OMB, and NIST guidance.

       We agree that the steps that NPPD plans to take begin to satisfy this
       recommendation. This recommendation will remain open until NPPD provides
       documentation to support that planned corrective actions are completed.

       Technical Enhancements Can Improve CyberScope Security

       CS&C has not implemented all DHS security controls on its CyberScope database,
       which may allow unauthorized individuals to gain access to sensitive data. To
       assess the security posture of CyberScope, we interviewed selected IT and
       program management personnel. In addition, we performed vulnerability
       assessments on the web and database servers. We also reviewed configuration
       settings on selected servers for compliance with applicable DHS Sensitive
       Systems Configuration Guidance.

       Implementing the Required Configuration Settings Can Further Secure
       CyberScope

       Although CS&C has implemented effective controls on CyberScope, the database
       was not configured with all required DHS baseline configuration settings to
       protect the information it stores. For example, we evaluated whether selected
       security controls, such as access control, identification and authentication,
       encryption, and network security settings were implemented on CyberScope.
       We identified the following three instances of noncompliance:

           •	 A guest account exists on a database that may allow an unauthorized
              user to gain anonymous access. DHS guidance prohibits the use of guest
              accounts on databases.


www.oig.dhs.gov                           13	                                 OIG-13-95

                                  OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security



              •	 A default account has not been disabled or renamed. The use of
                 well-known default accounts increases the risks that individuals may gain
                 unauthorized access to the database. DHS requires all default accounts
                 be renamed or disabled.

              •	 Elevated permissions have been granted to a public group which may
                   allow users to get sensitive system information in the Windows registry.16
                   DHS requires that users be granted the most restrictive set of privileges
                   needed to perform their assigned tasks.

         Subsequent to the completion of our audit work, CS&C personnel stated that
         they had taken or planned to take corrective action to address the deficiencies
         identified during our vulnerability assessment. As fieldwork had already been
         completed, we did not verify whether the deficiencies had been remedied.

         DHS baseline configuration guidance provides the settings and parameters for
         ensuring a minimum baseline of security when installing or configuring
         databases, such as access control, identification and authentication, auditing,
         and encryption requirements. The guidance should be used to help protect
         databases from potential software flaws and help reduce the likelihood of
         potential threats, including unauthorized access or hacks. In addition, FISMA
         requires that all systems meet minimally acceptable system configuration
         requirements, as determined by the agency.

         When databases are not properly configured, unauthorized individuals could
         gain access to sensitive data. As a result, DHS cannot ensure that effective
         security controls have been implemented, restricting the ability of management
         officials to make effective, risk-based decisions.

         Recommendation

         We recommend that the Acting Assistant Secretary, CS&C:

         Recommendation #6: Implement all required DHS baseline configuration
         settings on the CyberScope database.




16
  A Microsoft Windows registry is a hierarchical database that stores configuration settings, and keeps track of the
software installed on the computer and how each program relates to others.


www.oig.dhs.gov                                           14	                                              OIG-13-95

                        OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


       Management Comments and OIG Analysis

       NPPD concurred with recommendation 6. Cyberscope system operators are
       expected to adhere to all required DHS baseline configuration settings.
       CyberScope, like any other hosted application, is subject to configuration
       management policies and procedures. Furthermore, CyberScope is subject to
       continuous vulnerability scanning and configuration audits. FNR provided
       documentation to OIG in early March that addresses the remaining finding. FNR
       continues to work within DHS to ensure that all DHS baseline configuration
       settings are set and maintained within CyberScope.

       We agree that the steps that NPPD plans to take begin to satisfy this
       recommendation. This recommendation will remain open until NPPD provides
       documentation to support that planned corrective actions are completed.




www.oig.dhs.gov                          15                                 OIG-13-95

                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Appendix A
Objectives, Scope, and Methodology
DHS OIG was established by the Homeland Security Act of 2002 (Public Law 107-296) by
amendment to the Inspector General Act of 1978. This is one of a series of audit,
inspection, and special reports prepared as part of our oversight responsibilities to
promote economy, efficiency, and effectiveness within the Department.

The objective of our audit was to determine whether NPPD has effectively implemented
its additional cybersecurity responsibilities to improve the security posture of the
Federal Government. Specifically, we determined the progress and effectiveness of
NPPD’s actions in (1) implementing its FISMA cybersecurity responsibilities,
(2) overseeing the TIC initiative, and (3) addressing Executive Order 13618 regarding
DHS’ national security/emergency preparedness communications functions and
responsibilities. We also determined whether NPPD has implemented effective system
security controls to protect sensitive information stored and processed by the DHS
CyberScope system, including a review of its security documentation to assess
compliance with applicable DHS, NIST, and OMB policies and guidance.

To determine the effectiveness of NPPD actions in implementing its FISMA cybersecurity
responsibilities, we interviewed selected CS&C personnel and management officials.
We also collected comments from OIG and OCIO personnel from 10 Federal agencies
and representatives from the Chief Information Security Officer Council and Federal Audit
Executive Council. In addition, we reviewed and evaluated CS&C security policies,
standard operating procedures, training data, and other appropriate documentation.
Because of the recent issuance of Executive Order 13618 and its early stage of
implementation, we did not perform a compressive evaluation on NPPD’s actions and
requirements. We also conducted automated security assessments using Tenable
Nessus and Application Security, Inc. AppDetective Pro on databases and operating
systems. Finally, we reviewed CyberScope configuration settings, cryptography
implementation, vulnerability assessment processes, and patch management.

Fieldwork was performed in the Washington, DC, area. We conducted this
performance audit between October 2012 and March 2013 pursuant to the Inspector
General Act of 1978, as amended, and according to generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based upon our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objectives.



www.oig.dhs.gov                            16                                   OIG-13-95

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


Appendix B
Management Comments to the Draft Report

                                                                                   Nllliorr"ll+oUcf;on ,,,rd I'roKfUIr" o;'W(}fu/e
                                                                                    u.s. Dep~rt"'ut of lIom.t.nd SHurity
                                                                                    Wuhlnglon, [)C 20.'i2H


                                                                             "1~'         Homeland
                                                                             9            Security
           ~1r. Charles K. Edwards
           Deputy JIlSpeClUf Genera l
           Office of Inspector General
           C.S. Department of Homeland Sec uriLy
           Washington, DC 20528

           Dear Mr. Edwards:

           Re: Office of Inspector General Report, DHS Can rake Actions to Address Its Additiorml
               Cybersccurity Responsibilities (010 Project No. 12·171-ITA-NPPD)

           Thank you for the opportunity to review and comment on this draft report. The U.S. Department
           of Homeland SecuriLY ( DHS) appreciates the Office of Inspector General's (DIG) work in
           planning and conducting its review and issuing this report.

           The National Protection and Programs Directorate (NPPD) is pleased thnt the OIG highlighted
           accompl ishments regarding actions takt:n by the Office of Cyher:'>ecurity and Communicat ions'
           (CS&C) Federal Network Resilience (FNR) division to implement its additional eybersecurity
           responsibilities effectively. Specifically, the report recogni:Gc:s improvements made to the
           Federa llnfonnation Security Management Act (FISMA) reporting process and progress made in
           assisting with the improvement of cybersecurity programs at Federal agencies.

           The FNR has developed and refined the rumual FISMA reporting metrics, in coordination with
           the Office of Management and Rudget (OMB), ~md has conducted seven CyberStat reviews since
           October 2012. As a result, FNR was able to support Federal agency efforts to identify capability
           limitations and to develop act ion plans that work to improve information security operations. In
           addition, 18 network and Trusted Internet Connection assessments were pcrfonned in
           FY 2012, which evaluated security postme and cOlilpliant:c with OMR cyhersccurity initiatives.
           It's important to note that FNR is currently deploying a proven diagnostic technology across the
           .gov realm that automatically scans govemmeni networks every thrc:1! days, thus enabling
           agencies to ident ify and repair the worst network problems first. This automated Conti nuous
           Diagnostics and Mitigation (COM) program will replace costly and infrequent manual
           inspections of systems.

           Si)\ recolllmendatiuns were made to the CS&C Acting Assistant Secretary·

           Recommendation 1: Coordinate with OMB to devdop a strategic implementaTion plan which
           identifies long-term goals and milestones for Federal a£ency FISMA compliance.

           Response: Concur. FNR is currently engaged with OMB, the Nat ional Institute of Standards
           and Technology (N lST), and the C hief lnfonnation Officer (CIO) community in a s ustained




www.oig.dhs.gov                                           17                                                              OIG-13-95

                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security




             effort to strategically align CDM L:apabilities, direction, and governance with the requirements
             and imperatives of the FIS.\1A compliance regime. The overarch ing aim of the straiegic alliance
             will further advance perfonnance and produce measurable results. OMB is being provided
             short-, mid-, and long-term concept of operations (CONOPS) roadmaps for CDM via the Joint
             Continuous Monitoring Working Group (JCMWG). FNR is also working directly with NlST to
             map measurements to controls. These co llaboflltions arc directly influencing OMS guidance to
             departments and agencies, including the revision of OMB Circular A-130. Suggested exit
             criteria are the JCMWG CONOPs containing short-, mid-. and long-range CDM roadmaps;
             dclivcrablcs related to the COM capability modd; and COM control mappi ngs.

             Rewmmendation 2: Update and finalize interna l operating procedures and guidance
             documents to ensure that cyhcr responsibilities and procedures are clearly defined.

             Response: Concur. FN]{ has finalized all of its internal Standard Opernting Procedurcs (SOPs)
             for FISMA reporting and metric guidance, cybersccurity pcrfonnancc reviews, and perfonnunce
             analysis. Operational process and procedure documents for the Cybersecurity Performance
             Management (CPM) branch are consolidated in the single documenL; 'Cybersecuril)'
             Performance Mallaj{emellt Operatiom' Guide vl .O '. In addition, fNR has updated their
             CONOPs in Performance Management Concept a/Operations (CONO?S), v,2. O. The
             Operations GUide vJ.O and CONO?S v2.0 are currently under final review and will be shared as
             soon as they are signed.

             Recommendation 3: Improve communication and coordination with Fcdcral agencies by
             providing additional clarity regarding the FISMA reponing metrics.

             R(sponsc: Concur. FNR's CPM branch is committed to continuou::; improvement. CPM has
             dedicated mechanisms in place for develuping and vetting metrics and guidance using subject
             matter experLs in full collaboration with lG and CIO communities. Working groups are currently
             being held with representatives of the fG community and subgroups of the Infonnation Security
             and Identity Management Committee in order to incorporate leedback in the development of the
             FY 14 metrics. As the OIU report notes, the Federal community has experienced improvements
             in the FISMA reporting process. Those improvements are due in large part to F).JR's
             commitment to continuous improvement, and FNR fully expects each successive round of
             metrics to be an improvement over the previous round. In addition, the (PM Branch will
             produce the following addiiions to ihe Cybersf!(;urity P€rformance Managemenr Operations
             Guide v/.O (a) stakeholder awareness matrix that outlines communication activiti es; (h) _"ervice
             descriptions that include procedures, practices, and expectations for collaboration with and
             support of Federal agencies; anrl (c) an impact matrix that identifies specific criteria for assessing
             the quality of a question.

             R~ommendation 4: Implement a process to analyze and provide detailed feedback to Fcdcral
             agencies concerning monthly vulnerability data fceds.

             Response: Concur. The data feeds however currently do nut pruvide the fidelity or reliability
             required to provide a detailed vulnerability picture. The current data feeds are w;eful for
             informing decision makers of large-scale trends and possible threats concerning the existence of




www.oig.dhs.gov                                            18                                                         OIG-13-95

                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security




           unsupported (end-of-life) operating system and softwilre. The feeds also provide useful (though
           rough) situational awareness data regarding the types of monitoring tools being used and the
           fullness of current implementations.

           Resources are assigned and analysis is underway in order to glean additional useful vulnerability
           data from the feeds. However. the CyberScope data feeds must be seen as a transitional activity
           ill the bigger picture ofCDM. The feeds constitute an important fi rst step in achieving the
           eflietprise view esscnliallu a sm;cessful continuous monitoring program. The alignment nftools,
           standards, resources, govemanL:c, and operations needed to bring about the feeds constitute a
           significant early success and critical baseline in the c:vu lution of COM.

           Additionally. the CPM branch in coordination with COM program resources will produce a
           transition plan. The Transition Plan will identify thc tasks and activities involved in moving
           from the Cyberscope data feeds to the COM dashboard. The Tronsition Plan will include thc
           foll owing elements: a scope statement addressing background information on the project, il
           de~cription orthe relationship oflhe project to other proj ects andlor organizations, m aintenance
           resources, and identi fica tion of the transition team' s responsibilities. It also includes the
           deployment schedule, resource estimates, management controls, reporting procedures, and risks
           and contingencies.

           RetOlDlIlcndatioll 5: E~ t(:lblish a process to ensure that all CyberScope contractor system
           administrators have received adequate security training in compl iance with applicable DHS,
           OMB, and NIST guidance.

           Response : Concur. FNR is developing a SOP that defines the proccdural controls for tracking
           CyberScope administrators-to ensure training meets or exceeds applicable DHS, OMB, and
           NlST guidance.

           Retommendation 6: Tmplement nil required DHS baseline configuration settings on the
           CyberScope database.

           Response: Concur. The CyberScope system operators are expected to adhere to all required
           OHS baseline configuration settings. CyberScope, like any other hosted application is subject to
           configuration management po lici e~ and pruccdures. Furthennore, CyberScope is subject to
           continuous vulnerability scanning and configuration aud its. FNR provided documenlalion Lo the
           O IG in early March that addresses the remaining find ing. PNR continues to work within DHS to
           ensure that all DHS baseline configuration settings arc set and maintained within CyberScope.

           Again, we thank you for the opportunity to review and provide comment on this draft report, and
           we look torward to working with you on future homeland security engagements.


                                                             ~ereIY'

                                                                suza~a~i~
                                                                Acting Undt:r Secretary




www.oig.dhs.gov                                            19                                                   OIG-13-95

                       OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


Appendix C
Major Contributors to This Report
Chiu-Tong Tsang, Director
Aaron Zappone, Team Lead
Thomas Rohrback, IT Specialist
Michael Kim, IT Auditor
Pachern Thapanawat, IT Auditor
Sheldon Liggins, IT Auditor
Swati Nijhawan, Referencer




www.oig.dhs.gov                        20                   OIG-13-95

                           OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix D
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
Under Secretary for Management
Under Secretary, NPPD
General Counsel
Executive Secretary
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Chief Information Officer, DHS
Chief Information Security Officer, DHS
Chief Information Officer, NPPD
Chief Information Security Officer, NPPD
Acting Chief Privacy Officer
Director, Compliance and Oversight, DHS OCISO
Director, GAO/OIG Liaison Office
Audit Liaison, CIO, DHS
Audit Liaison, CISO, DHS
Audit Liaison, NPPD

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                               21                        OIG-13-95

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
